1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
703.243.9423
www.consovoymccarthy.com

May 28, 2020
Via Electronic Filing
Hon. Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington D.C. 20543
Re:

CIC Services, LLC v. Internal Revenue Service, et al., No. 19-930

Dear Mr. Harris:
I represent the Petitioner in the above-captioned case. The Petitioner hereby grants blanket
consent to the filing of amicus curiae briefs in support of either or neither party.
Respectfully submitted,

Patrick Strawbridge

cc: Counsel for Respondents

